                    March 21, 2000

                    RICHARD D. WEIRICH
                    VICE PRESIDENT, INFORMATION SYSTEMS

                    SUBJECT:	     Cost Savings Identified in the Use of Calling
                                  Cards by Postal Service Employees
                                  (Report Number FA-MA-00-003)

                    This report presents the results of our review of the contract
                    for rates and billing practices of a major telecommunications
                    provider to the Postal Service. The review was initiated to
                    substantiate allegations of excessive charges by the
                    telecommunications provider. This report addresses the
                    results of the review including potential cost savings to the
                    Postal Service related to the contract.

Results in Brief	   The Postal Service paid an average of 38 cents per minute
                    for calling card calls, which was 22 cents higher per minute
                    than its toll free, "dial 1", and local phone services.
                    Contractor personnel responsible for billing and invoicing
                    explained that the calling card charges were higher because
                    Postal Service personnel used operator assistance instead
                    of direct dial when making calls. We suggested that the
                    program manager, Telecommunications Services identify
                    the Postal Service districts currently under the contract and
                    notify their personnel to use direct dial when using calling
                    cards. Management agreed with our suggestion and has
                    taken corrective action. Management’s comments, in their
                    entirety, are included in the appendix.

Background 	        In May 1998 the Postal Service issued an interim one year
                    contract with a major telecommunications provider (with an
                    additional one year option) to provide telephone services
                    (i.e. calling card, toll free, mobile, etc). The one year
                    contract term enabled the Postal Service to assess the type
                    of telephone services they needed. According to this
                    interim contract, the contractor’s telephone rates increased
                    if usage was less frequent. This increase was specified



                             Restricted Information
Cost Savings Identified in the Use of Calling                                        FA-MA-00-003
 Cards by Postal Service Employees


                                within the contract in anticipation of the Postal Service
                                migrating to another contractor. Since there were many
                                delays in transitioning accounts to another contractor, in
                                June 1999 the Postal Service exercised the one-year option
                                and extended the contract with the initial provider.

Objective, Scope, and           The objective of this review was to determine if the Postal
Methodology                     Service was incurring excessive charges under the
                                telecommunications contract. During the review, we
                                conducted interviews with Postal Service management and
                                telecommunications contractor personnel. We also
                                reviewed contract files. This review was conducted from
                                December 1999 through March 2000 in accordance with the
                                President’s Council on Integrity and Efficiency, Quality
                                Standards for Inspections.

Observations                    The Office of Inspector General reviewed monthly charges
Telecommunications              under the telecommunications contract and determined that
Charges                         the Postal Service paid an average of 16 cents per minute
                                for phone services, with the exception of the calling card, for
                                which charges averaged 38 cents per minute. Personnel
                                from the contractor’s Government Services Division
                                responsible for billing and invoicing explained that the
                                calling card charges were higher than other rates because
                                Postal Service personnel used operator assistance in lieu of
                                direct dialing to make the calls. The telecommunications
                                contract limits calling card charges to 18 cents per minute
                                when direct dial is used, but provided higher charges for
                                operator assisted calling card calls. Further review of the
                                contract documents also revealed that calling card users
                                requesting operator-assisted calls were billed at higher tariff
                                rates.

                                A review of records for the time period April through August
                                1999, disclosed that Postal Service operator assisted calling
                                card calls averaged a total of almost 59,000 minutes per
                                month. The Postal Service paid approximately $22,000 per
                                month at the 38 cents rate. However, if direct dial had been
                                used during the same time period, the Postal Service would
                                have paid only about $9,400 per month (average of 16
                                cents per minute). Therefore, using direct dialing instead of
                                operator assisted calls on the calling card could have saved
                                the Postal Service almost $13,000 per month for the same
                                period.




                                                       2
                                            Restricted Information
Cost Savings Identified in the Use of Calling                                       FA-MA-00-003
 Cards by Postal Service Employees



                                Based on the average number of calling card minutes of
                                59,000 per month, using direct dial as specified in the
                                contract could save the Postal Service up to $26,000 for
                                the remaining two months of the contract – March and
                                April 2000. The OIG is aware that some Postal Service
                                personnel may need to use operator assistance, if they are
                                in a remote location.

Suggestion 	                    We offer the following suggestion. The vice president,
                                Information Technology should:

                                •	 Inform Postal Service District offices to notify personnel
                                   using services under the telecommunications contract to
                                   use direct dial whenever possible when making calling
                                   card calls.

Management’s 	                  Management agreed with out assessment of the cost
Comments 	                      savings realized and stated that they issued a memorandum
                                recommending that all Postal Service personnel using
                                calling cards, utilize direct dial services whenever possible.

Evaluation of                   Management’s comments are responsive to our suggestion
Management’s                    and should correct the issue identified in this report.
Comments
                                We appreciated the cooperation and courtesies provided by
                                your staff during the review. If you have any questions,
                                please contact Anthony T. Cannarella, director, Facilities
                                Programs at (703) 248-2270, or me at (703) 248-2300.



                                Sylvia L. Owens
                                Assistant Inspector General
                                 For Revenue Cost/Containment

                                Attachment

                                cc: 	 Thomas A. Nicolosi
                                      Larry Wills
                                      John R. Gunnels




                                                       3
                                            Restricted Information
Cost Savings Identified in the Use of Calling                        FA-MA-00-003
 Cards by Postal Service Employees


                          APPENDIX. MANAGEMENT’S COMMENTS




                                                       4
                                            Restricted Information
Cost Savings Identified in the Use of Calling                        FA-MA-00-003
 Cards by Postal Service Employees




 Major Contributors to
 This Report




                                                       5
                                            Restricted Information
